June Gibbs Brown

Inspector General


Abuse Complaints of Nursing Home Patients



Nancy-Ann Min DeParle

Administrator

Health Care Financing Administration



Attached for your information is our report on abuse complaints involving nursing home

patients in selected States (OEI-06-98-00340). Our original purpose in conducting this study

was to ascertain what can be learned about the extent and nature of abuse of nursing home

patients based on data available from the abuse complaint systems of 11 large States. We used

this data in conjunction with data from other sources (such as survey deficiencies and

ombudsman complaints) to gain an understanding of conditions in nursing homes. The results

were included in our report entitled, “Quality of Care in Nursing Homes: An Overview.” That

report and our corresponding congressional testimony demonstrated the existence of serious

quality of care problems in some nursing homes. 


With regard to abuse complaints, we were able to obtain reliable data from only 8 of the 11

States we contacted. We found that between 1 and 3 percent of their nursing home population

have registered a complaint. One State indicates a much higher percentage of 17 percent. 

However, due to the lack of uniform data systems and definitions across States, we cannot

draw generalizations from those observations. We also have no way of knowing whether

States with higher reported abuse complaint levels actually have more abuse occurring, have

more aggressive abuse reporting systems, or have some other outside influencing factors.


The data we obtained is about complaints made, but not necessarily substantiated. Thus, we

cannot tell from the data to what extent nursing home patients are in jeopardy. However, we

are able to see that what is being reported by patients is serious. These complaints relate

directly to abuse and quality of patient care problems in an environment which should ensure

each patient’s well being.


We had planned to conduct a follow-up inspection on existing State patient abuse complaint

systems. However, given the Health Care Financing Administration’s (HCFA) plans to

strengthen the complaint process and its recent letter to the State survey agencies clarifying

HCFA’s expectations for the collection, review, investigation, and reporting of complaints, we

do not believe an Office of Inspector General review would be useful at this time. Instead, we 

Page 2 - Nancy-Ann Min DeParle


will wait until the improved complaint process is implemented; we will then conduct an

evaluation of how the process is working. We will work with your staff to develop the study

so that it will give them the feedback they need to ensure the new system takes hold

effectively.


In the meantime, we thought it might be useful for HCFA staff who are developing the new

system to have the benefit of our work to date on abuse complaints. Thus, we are presenting

our findings in the attached report. It provides more information on our attempts to obtain

State data as well as information we could glean from the State-provided data. We hope that

interested HCFA staff and the research community will find it useful.


We are closing out this particular inspection. There is no need for you to provide comments

on it. However, if you have any questions please do not hesitate to call me or George Grob,

Deputy Inspector General for Evaluation and Inspections, or have your staff contact 

Mary Beth Clarke at (202) 619-2481. 


Attachment

Abuse Complaints of Nursing Home Patients




      Department of Health and Human Services

            Office of Inspector General

        Office of Evaluation and Inspections



                    May 1999

                 OEI-06-98-00340

                                  Table of Contents





Introduction                                                                             1


      Background                                                                         1

      Difficulty Determining Abuse Frequency                                             2

      Methodology                                                                        4



Individual State Results
      Abuse and neglect complaints from eight States                                     7

      Abuse and neglect complaints as a percentage of 

       two States’ nursing home populations                                             10


Endnotes                                                                                13


References                                                                              15


Appendices

      A - Request Letter to States

      B - Examples of State Definitions of Abuse and Neglect

      C - Analysis of State Specific Information





For further information, please contact Leah K. Bostick at 214-767-3310 or 1-800-848-8960.
                 Abuse Complaints of Nursing Home Patients

Purpose

To ascertain what can be learned about the extent and nature of abuse of nursing home patients
based on data available from State abuse complaint data systems.

Background

Recent reports by the Health Care Financing Administration (HCFA) on nursing home
responsibilities and processes, and General Accounting Office reviews of patient care in California
nursing homes have raised serious concerns for patients’ care and well-being. The Senate Special
Committee on Aging held two hearings in the summer of 1998 on these results. At the same time,
the Office of Inspector General (OIG) undertook additional studies aimed at assessing the quality
of care in nursing homes. We recently issued reports on the inadequacy of criminal background
checks for potential employees and raised questions about States’ responses to patient abuse.
Future OIG reports will address a broad array of nursing home care issues, including a systematic
review of all key provisions of the 1987 nursing home reform legislation and the Ombudsman role
in nursing homes. This report examines the extent of patient abuse in nursing homes as described
in formal State abuse complaint reporting systems.

Federal Laws and Regulations Regarding Abuse Complaints - The most important
Congressional response to prior concerns for nursing home patients was the Omnibus Budget
Reconciliation Act of 1987 (OBRA 1987). This law assured and strengthened certain personal
rights and protections for nursing home patients. Personal rights include the right to not be
physically or mentally abused, involuntarily secluded, and to be free from chemical and physical
restraints.1 The guidelines for these regulations specify that a nursing home’s responsibilities for
preventing abuse also apply to practices and omissions which can lead to abuse, if left unchecked.
Abuse, including neglect, can be inflicted by nursing home staff, visitors, or even other patients.

The OBRA 1987 requires States to receive complaints and provide timely review and
investigation of allegations of neglect, abuse, and misappropriation of resident property by any
employee of the nursing home.2 New Federal regulations issued by HCFA, including enforcement
regulations with new survey processes implemented in July 1995, were designed to help ensure
those protections for patients. The Older Americans Act (OAA) of 1965 and its subsequent
amendments provide for State aging agencies to assess the need for elder abuse prevention
services.3 A companion OIG report addresses the trend of abuse as reported by State
Ombudsman offices.4

State Laws and Regulations - All States have some form of legislation authorizing the
protection of its vulnerable, incapacitated, or disabled adults in domestic settings (in the person’s
own home or that of a caregiver) by requiring reporting of abuse to either the State’s adult

                                                  1

protective services or through a State long-term care ombudsman. While State statutes may not
designate “elder abuse,” specifically, as a crime, most States do consider many forms of physical,
sexual, and financial/material abuses of domestic elderly persons as crimes.

Fewer States legislatively equally address abuse of these same individuals in institutional settings
(nursing homes and other long-term care settings). Most States have attempted to address this
issue by legislatively mandating that physicians, nurses, and other health care professionals report
suspected institutional abuse to a designated State office and requiring nursing homes to
investigate, as well as report, any abuse occurrences in their facilities.

Difficulty Determining Abuse Frequency

Diversity of Government Agencies - Many Federal and State agencies are responsible for
protecting elderly and disabled nursing home patients.

At the Federal level, three Department of Health and Human Services (DHHS) agencies have
either direct or indirect involvement with nursing homes and services to their patients: the
Administration on Aging (AoA), HCFA, and the OIG. The HCFA has ultimate responsibility for
the Medicare and Medicaid programs, which includes ensuring that the reforms of OBRA 1987
are implemented by States and nursing homes.

In response to raised concerns, HCFA will add a new survey task requiring State surveyors to
review each nursing home’s abuse prevention plan aimed at preventing, identifying, and stopping
physical or verbal abuse, neglect, and misappropriation of nursing home patients’ property.5,6
However, sometimes the most glaring deficiencies and abuse incidences cited by surveyors against
nursing homes are tagged as problems other than neglect or abuse, and rarely are deficiencies of
nursing care, patients’ rights, or quality of care cross-tagged to neglect or abuse citations.7
Consequently, State and Federal nursing home survey statistics probably do not accurately
describe the incidence of abuse or neglect. The HCFA also announced its support of additional
nursing home reforms announced by the President in July 1998. These reforms are directly
related to abuse and neglect of patients, including the need to provide additional training to State
nursing home surveyors in those States not adequately protecting nursing home patients from
abuse.8

At the State level, there are many public and private agencies and organizations concerned and
actively involved in deterring institutional abuse. These can include the State units on aging, law
enforcement offices (police, attorney general), medical examiners’ offices, State long term care
ombudsman offices, the State health department, and the agency responsible for licensing and
certifying nursing homes. Most typically, this latter State agency, which ensures nursing homes
meet Medicare and Medicaid requirements, is also designated as the primary contact for State-
required institutional abuse reporting by physicians and other health care professionals. The




                                                  2

variation in Federal and State agency requirements, processes, and definitions compounds the
difficulty of obtaining a realistic national picture of nursing home abuse occurrences.

Lack of Standardized Definitions - The AoA “Annual State Ombudsman Report” is the only
current standardized means of collecting national abuse data. This report uses the Older
Americans Act and HCFA guidelines for capturing complaints broadly classified as abuse, gross
neglect, or financial exploitation.9 In 1996, all States began submitting the report to AoA through
its National Ombudsman Reporting System. This new system captures more specific data
elements than were previously reported. Specifically, the categories for which AoA collects abuse
or neglect information included physical abuse, sexual abuse, verbal/mental abuse, financial
exploitation, gross neglect, and resident-to-resident physical or sexual abuse. However, unless
the State Ombudsman has been designated by State statute as the entity to which all incidents and
complaints of nursing home abuse and neglect must be reported, the AoA report will identify only
those issues or complaints brought to them by their own nursing home ombudsmen and aware
citizens.

Federal definitions first appeared in the 1987 Amendments to the Older Americans Act.10
However, these definitions only provide guidelines for identifying problems; they are not
intended or used for enforcement purposes. These definitions have recently been expanded to
include language specific to the HCFA “Survey Forms and Interpretive Guidelines for the Long
Term Care Survey Process, April 1992.”11 As previously mentioned, in June 1995, HCFA
released revised guidelines to Federal and State nursing home surveyors. However, these
guidelines continue to provide non-enforceable definitions relating to sections of the law reviewed
for compliance (generally citation tag numbers F221 through F224).

Ultimately, each State has the responsibility for protecting its older persons. As such, States
usually define abuse of elderly persons through their State laws. However, these definitions vary
between States regarding what constitutes abuse, neglect, or exploitation of an elderly individual.
Defining abuse becomes even more difficult when adding the distinction of elderly and disabled
in nursing homes versus domestic abuse (occurring in the community). In most cases, State
statutes provide the necessary definitions for the reporting abuse occurrences by nursing homes
and other health professionals, again, with varying degrees of specificity. Additionally, many
researchers have coined their own unique definitions to study the problems of domestic and
institutional abuse.

Responsibility for Institutional Abuse Resolution - States are required to ensure receipt and
timely review and investigation of allegations of neglect, abuse, and misappropriation of resident
property by any employee of the nursing home.12 While many State agencies have some
responsibility for resolving nursing home problems, each State usually designates to the nursing
homes a coordinating entity (an individual or a particular State agency) with central State
authority to receive complaints of mistreatment or neglect of nursing home patients. Several
different State agencies may be assigned responsibility for designing, operating, and coordinating
nursing home complaint processes including the:


                                                 3

       State Ombudsman under the direction of the State Agency on Aging,

       Medicaid Fraud Control Unit (MFCU) or other legal authorities (State Office of the Attorney

       General),

       Agencies for nursing home certification and licensure,

       Licensure agencies for medical personnel,

       State adult protective services, and

       Local or State law enforcement agencies.


However, while coordination for nursing home abuse complaints may be located in any number of
State agencies, the responsibility usually is assigned to the State nursing home survey and
certification agency. In a few States, the State agency on aging, which houses the State
Ombudsman Program (required by AoA), may have the primary responsibility for abuse or neglect
complaints of nursing home patients.

Available Research on Incidence - Although there are many studies available on domestic
abuse, much less research has addressed institutional abuse. This was recently reconfirmed by
testimony of the Acting Principal Deputy Assistant Secretary for Aging, AoA, who stated that “In
spite of all the anecdotal information, media exposes, ethnographic studies, and licensure and
certification reports on nursing homes, little is known about the incidence of abuse in institutional
settings, although all agree that it does exist.”13 Also, most existing institutional studies were
based on relatively small samples and did not provide national estimates of elder abuse prevalence
or incidence.

However, one recent study provides, for the first time, national incidence estimates for domestic
elder abuse and neglect. This study, “The National Elder Abuse Incidence Study,”14 found that
approximately one-half million (domestic) elderly persons were abused and neglected during
1996. The information for the national domestic abuse study was provided by State adult
protective services (APS) offices, which generally coordinate policy and response to domestic
abuse of elderly and disabled persons, and other sentinel agencies.15

Methodology

Sample Selection

We selected a purposive sample of 11 States (New York, California, Texas, Ohio, Illinois,
Pennsylvania, Massachusetts, Florida, New Jersey, Tennessee, and Michigan) representing
approximately 54 percent of the Medicaid recipients receiving services in nursing facilities,
including skilled facilities, and 61 percent of the total skilled nursing beds. Additionally, these
States represented 46.9 percent ($23.9 billion) of Medicaid long term care expenditures for
nursing facilities in 1996.16 This purposive sample represents States of various sizes and different
regions of the country. Michigan initially served as our test State for the methodology. That test
resulted in no changes for the instrument used; therefore, we have included Michigan’s data in our
findings.

                                                   4

We identified each sample State’s agency having responsibility for maintaining nursing home
abuse complaints. We asked that office to complete and return a form identifying reported,
investigated, and substantiated numbers of institutional abuse complaints during calendar years
1993 through 1997.

Definitions

In reviewing existing literature, we identified many categories of abuse and neglect defined and
used by researchers. For this inspection, we attempted to choose and define specific types of
abuse which appeared more readily identifiable for conversion from any State’s definitions and
collection systems (manual or computerized process). However, we started with the Federal
definitions provided as part of the State and Federal survey and certification processes for long-
term care facilities located at 42 CFR 488.300 (Subpart E), Section 301:

   •	   Abuse is defined as “willful infliction of injury, unreasonable confinement, intimidation, or
        punishment with resulting physical harm, pain, or mental anguish.”

   •	    Neglect refers to “failure to provide goods and services necessary to avoid physical harm, mental
        anguish, or mental illness.”

Based on our review, we selected four specific types of abuse as key indicators of recent nursing
home patient abuse and neglect trends: physical abuse, inappropriate use of restraints, physical
neglect, and medical neglect. The table below provides the definitions for the four specific sub-
categories of abuse and neglect used in this study.


           Physical Abuse	          the infliction of physical pain or injury, including sexual abuse,
                                    which may result in bodily injury, physical pain, or impairment

           Inappropriate Use        chemical or physical control of a resident beyond physician’s
           of Restraints            orders or not in accordance with accepted medical practice

           Physical Neglect	        disregard for necessities of daily living (e.g., failure to provide
                                    necessary food, clothing, clean linens, or daily care of the resident’s
                                    personal necessities)

           Medical Neglect	         lack of care for existing medical problems (e.g., ignoring the need
                                    for a special diet, not calling a physician when necessary, not being
                                    aware of the possible negative effects of medications, or not taking
                                    action on a medical problem)



Our request letter to the 11 sample States clearly indicated our understanding that their internal
definitions would differ from those above, as would their means of collecting the requested data
(see Appendix A). With this understanding, we asked that States make the necessary conversions
between their definitions and those we used for this study, reporting to us the process and
components of that cross-walk.

                                                      5

During follow-up on data requests, States were provided an opportunity to simplify their
processes by limiting the number of years to three and the categories to as few as two broad
categories of abuse and neglect (combining only complaints meeting the definitions above). This
proved helpful in a few instances when this was the only way to obtain the State information.
Further, at any point, after multiple contacts to obtain the requested information, we accepted
whatever data the States were able to provide.

Investigations and Substantiations

Because of limitations of State data reporting systems and differences in their follow-up
procedures, we were unable to analyze received information about States’ investigations or
substantiations of complaints. Furthermore, we did not analyze how effectively States and
nursing homes inform patients about their opportunity to report complaints, nor did we determine
what barriers, if any, may prevent patients from reporting complaints (we will study these issues in
future reports). Thus, our study cannot determine the extent to which abuse is actually occurring
in nursing homes, only the extent to which States report receiving complaints involving nursing
home patients and the type of complaints they reported receiving. We are using this information
in concert with other information to gain a general understanding of conditions in nursing homes.

State Response

Eight of the sample States did provide limited data about reported complaints of nursing
home abuse and neglect in their State, but only two of the sample States were able to
produce the full data set of abuse and neglect trend information as requested. The primary
difficulties for the States proved to be determining what abuse and neglect data their system
(automatic or manual) captured; which of their data categories could be cross-walked to the
requested abuse and neglect types; who ultimately had responsibility for responding to such a
request; and coordinating with other offices to obtain abuse or neglect data not maintained in the
office designated as the primary coordinator for nursing home abuse complaint. Once these issues
were addressed internally, the final difficulty was assigning a staff person to the project and
ensuring its completion. Many of the States were unable to have a person perform this function
full-time for the potentially short period of time necessary (we anticipated two weeks maximum).
As a result, the project was “interwoven” with other responsibilities and completed as time
allowed.

Of the eleven sample States, only Illinois, Massachusetts, Michigan, and Texas attempted to
complete the OIG request in the manner specified using the provided definitions to cross-walk
their available data and reporting the information on the provided form. Both Michigan and
Texas complied fully.17

   •	   California provided their automated system reports for the years requested with no indication of
        which of their 11 categories of abuse and neglect could be cross-walked to our four specific abuse
        types (however, subsequent conversations with their staff allowed us to attempt this);


                                                    6

   •	   Florida provided only the raw data pertaining to nursing home complaints in a spreadsheet, with no
        indication of which complaints were abuse or neglect as defined by that State (subsequently, we
        received printed State reports providing data maintained by Adult Protective Services, 1991
        through 1995, but not reflective of the nursing home environment);

   •    Tennessee provided no State definitions for their provided data;

   •	   New York provided its applicable “State Annual Complaint Reports” for 1991-1995 and raw
        counts for the 1996-1997 report, again with no attempt to cross-walk their captured data to the
        requested data;

   •	   Pennsylvania was unable to provide any information concerning abuse and neglect trends and
        definitions for the data they collect internally; and

   •	   New Jersey was unable to provide the requested information from their manual system, but was
        able to provide the number of overall complaints received each year.

Individual State definitions for abuse and neglect vary greatly. Of the 11 sample States, no
two used the same State definitions for abuse and neglect complaints. Further, no two used the
same State definitions or processes for collecting data on reported, investigated, and resolved
abuse and neglect complaints. However, we must note that all of the sample States reported their
State’s adherence to the Federal categories of abuse provided in 42 CFR. One State actually has
no definitions for specific types of abuse or neglect beyond those provided at 42 CFR. Most of
the sample States have some form of broad definition of abuse. Appendix B illustrates the
variation in definitions provided in State law and regulations.

Many of the sample States were unable to cross-walk their definitions of abuse complaints to
those used for this inspection, primarily because they were unable to devote the necessary
staff time. Most of the States expressed concern about the perceived effort involved in
responding to our data request. Many were concerned particularly because of the potential for
taking considerable staff time to convert their State’s definitions to match those of this study and
to retrieve the information from the State’s data collection system (manual or automated). Also,
many of the sample States indicated they were in the process of changing, updating, or creating
automated abuse data collection systems.

Individual State Results

Based on available State data, we were able to calculate rough estimates of the extent and
nature of overall trends for reported abuse and neglect complaints for each State; however,
we are unable to compare the State results from one State to another. In order to compare
States, we would require a common system of defining, reporting, and resolving complaints.
Lacking this, we are only able to review the reported raw numbers of complaints within each
State. The tables below present the abuse and neglect complaints as reported by eight sample
States - California, Illinois, Massachusetts, New York, Michigan, Ohio, Tennessee, and Texas.


                                                     7

As can be seen in the following tables, the abuse complaints of nursing home patients are serious.
We see a consistent reporting of abuse and neglect with each State reporting an increase in
neglect complaints. These types of complaints relate directly to quality of patient care in an
environment which should be ensuring each patient’s well being.

                                                      California
   Possible Abuse and Neglect Categories            1995            1996              1997        Percent of Change**

                   Dietary                            135             139              143                +5.9
                 Medication                           138             150              126                 -8.7
                 Patient Care                       4,804           4,049             3,967               -17.4
                Patient Rights                        713             739              730                +2.4
                Neglect/Abuse                         743             665              744                +0.13
                   TOTAL                            6,533           5,742             5,710               -12.6*
 * The totals for the trend do not reflect the sum of that column.
 ** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
    and 1997.


                                                         Illinois
           Complaints                     1995              1996             1997              Percent of Change**

              Abuse                        495               502               567                     +14.5
       Misuse of Restraints                  18               41                61                    +238.0
              Neglect                      300               332               408                     +36.0
             TOTAL                         813               875             1,036                     +27.4*
 * The totals for the trend do not reflect the sum of that column.
 ** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
    and 1997.


                                                    Massachusetts
           Complaints                      1995              1996              1997             Percent of Change**

              Abuse                        531               346               273                     -48.6
              Neglect                      159               190               165                      +3.8
             TOTAL                         690               536               438                     –36.5*
 * The totals for the trend do not reflect the sum of that column.
 ** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
    and 1997.




                                                            8

                                                           Michigan
            Complaints                       1995*              1996            1997             One-Year Change**
                                                                                                     1996-1997

           Physical Abuse                      294                  739           438                    -40.7
        Misuse of Restraints                     7                   25            20                    -20.0
          Physical Neglect                     711              1,385           1,672                    +20.7
          Medical Neglect                       19                   82           130                    +58.5
              TOTAL                           1,031             2,231           2,260                     +1.3
*  The data for this year reflects only a six-month data period (July1-December 31) from the date of the initiation of a new
   data system. Prior data was not accessible. We did not calculate a 1995-1997 trend for this State, but only show a one-
   year change between 1996 and 1997.
** The totals for the one-year change only reflect the percentage of increase or decrease of the raw counts of State-
   reported complaints between 1996 and 1997.


                                                           New York
             Complaints*                         1993                1994           1995           Percent of Change**

                TOTAL                           1,522                1,481           959                   -37.0
* New York’s Chapter 340 Complaints.
** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
   and 1997.


                                                             Ohio
             Complaints                         1995                1996           1997            Percent of Change**

                 Abuse                           1,472               1,865          1,856                 +26.0
                Neglect                           150                  192             260                +73.3
               TOTAL                             1,622              2,057           2,116                 +30.5*
* The totals for the trend do not reflect the sum of that column.
** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
   and 1997.


                                                           Tennessee
               Complaints                         1995                1996           1997          Percent of Change**


                  Abuse                              515               431             429                 -16.7
                 Neglect                             113               110             130                +15.0
                 TOTAL                               628               541             559                 -11.0*
* The totals for the trend do not reflect the sum of that column.
** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
   and 1997.




                                                              9

                                                               Texas
                  Complaints                          1995             1996             1997            Percent of Change**

               Physical Abuse                          3,050            3,425              3,718                 +21.9
            Misuse of Restraints                        337              292                 360                  +6.8
               Physical Neglect                       10,872            9,688             10,331                  -5.0
               Medical Neglect                         2,322            2,235              2,420                  +4.2
                   TOTAL                              16,581           15,640             16,829                  +1.5*
 * The totals for the trend do not reflect the sum of that column.
 ** Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints between 1995
    and 1997.


We were also interested in calculating reported complaints as a percentage of each State’s nursing
home population. To attempt this, we asked each State for the number of nursing home patients
State-wide for each of three sample calendar years (1995-1997). However, most of the sample
States were unable to fully meet this request, and Florida, New Jersey, New York, and
Pennsylvania were unable to provide any acceptable nursing home patient census. Only
Massachusetts and Texas provided sufficient information to calculate the percentage of change.
The table below shows changes in total complaints over three years as a percentage of the nursing
home population for these years using the State-provided raw counts. A more detailed
description and analysis of each State’s reported data is found in Appendix C.

                                                   Massachusetts Complaints
                                                   Categories - abuse, neglect
                    Percent by Calendar Year                                       Percent of Change over 3 Years
        1995                    1996                   1997             1995-1996           1996-1997                Trend
        1.25                      0.97                 0.79               -22.40               -18.60                     (-)
 *   Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints as a percentage
     of the nursing home population between 1995 and 1997. Total patient numbers are the same for each year, as provided
     by the State.

                                   Total Complaints                                                Percent of Change
           1995                           1996                          1997                             -36.5
           690                             536                          438
                                                  Texas Complaints
                   Categories - physical abuse, misuse of restraints, physical neglect, medical neglect
                    Percent by Calendar Year                                       Percent of Change over 3 Years
        1995                    1996                   1997             1995-1996           1996-1997                Trend
       16.59                    15.88                 17.53                -4.3                10.4                       (+)
 *   Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints as a percentage
     of the nursing home population between 1995 and 1997.

                                   Total Complaints                                                Percent of Change
           1995                           1996                          1997                             +1.5
          16,581                          15,640                       16,829

                                                                10

In summary, when we compare the raw counts of reported complaints to the nursing home
populations in each of the sample States, we find most States report that between 1 and 3 percent
of their nursing home population had abuse or neglect complaints. One State indicates a much
higher percentage of 17 percent. We believe that this data represents each State’s reported
complaints. However, due to the lack of uniform data systems and definitions across States, we
cannot draw generalizations from those observations. We have no way of knowing whether
States with higher reported abuse complaint levels actually have more abuse occurring, have more
aggressive abuse reporting systems, or have some other outside influencing factors.

The State-provided data allow the use of raw counts to show a trend in each State; however, we
found no consistent trend in reported abuse complaints among all the 11 States. Some States
report increases in complaints; others report decreases. And for the same reasons cited above, we
are unable to explain the increases and decreases, even within individual States. The following
table provides a summary, by State, which shows the result of calculating the trend of complaints
as a percentage of the nursing home population for a three-year period.


                                Trend of State-Reported Abuse and Neglect Complaints
                                 as a Percentage of State Nursing Home Populations(1)
                                                                  Percentage of
                               Nursing Home Patient            Complaints to Nursing          Amount of Change Over 3
                                Population by Year               Home Population                 Years and Trend
      Sample State
                                                                                                                           (5)
                              1995      1996        1997       1995      1996      1997       1995-      1996-     Trend
                                                                                              1996       1997

       California (4)       94,239      NA          NA         1.48       NA        NA         NA         NA          NA

        Illinois (2)        103,075   102,829     102,583      0.77      0.81      0.95       0.04        0.14         +

     Massachusetts (3)      55,000    55,000      55,000       1.25      0.97      0.79       -0.28      -0.18         -
                      (2)
       Michigan             34,340    71,586      74,611       2.98      3.08      3.00       0.10       -0.08        NC
                (2)
         Ohio               98,797    102,033     105,375      1.64      2.01      1.92       0.37       -0.09         +

       Tennessee (2)        45,464    51,109      57,455       1.38      1.06      0.97       -0.32      -0.09         -

          Texas             97,919    96,676      93,951      16.93     16.18     17.91       -0.75       1.73         +

 (1) Florida, New Jersey, New York, and Pennsylvania were unable to provide any acceptable nursing home patient census.
 (2) In Ohio, Illinois, Michigan, and Tennessee, the 1997 total patient number was unavailable; we therefore used a linear
     extrapolation of two data points from 1995 and 1996 based on the unproven assumption that change in the number of
     total patients is similar to the previous two years.
 (3) Massachusetts provided us the same estimated numbers for each year.
 (4) California was unable to provide the patient figure for 1996 and 1997.
 (5) Trend reported is the percentage of increase or decrease of the raw counts of State-reported complaints over the 3-year
     period with a leveling effect applied.
 NA Not Available
 NC No noticeable pertinent change
 +      Increasing
 -      Decreasing




                                                             11

Again, using only the State-provided total raw counts, it appears that the ratio of reported abuse
and neglect complaints per nursing home patient are fairly stable, with minor increases in Illinois,
Ohio, and Texas and minor decreases in Massachusetts and Tennessee, with Michigan remaining
about the same. However, we are unable to explain the broad differences, ranging from less than
one percent to 3 percent on average for six of the States to more than 17 percent for one State.

Actually, differences may not be reflective of more or less abuse complaints occurring in one State
versus another State. For example, Texas’ complaints of abuse and neglect appear to be much
higher than the other reporting States. One possible reason for the high reporting of possible
occurrences may be Texas’ involvement in Operation Restore Trust in the prior two years.
During that period, and subsequently, the State and interested patient advocacy and nursing home
associations within the State provided a great deal of media coverage and education concerning
abusive situations. This may be one factor leading to a higher awareness and concern for
reporting such incidents.




                                                 12

                                  ENDNOTES
)))))))))))))))))))))))))))))))))))))))))))))))))))))))))))))))


1.     42 Code of Federal Regulations § 483.13.

2.     Omnibus Reconciliation Act of 1987 § 1919(g).

3.     42 U.S.C §§ 3001-3058ee (1994).

4.	    Long-Term Care Ombudsman Program: Complaint Trends (OEI-02-98-00350),
       Office of Inspector General, Department of Health and Human Services.

5.	    “Assuring the Quality of Nursing Home Care,” HHS Fact Sheet, Department of Health
       and Human Services, July 21, 1998.

6.	    “Nursing Home Initiative Update #1,” Health Care Financing Administration,
       Department of Health and Human Services, September 15, 1998.

7.	    OIG sample review of Health Care Financing Administration OSCAR deficiency tags
       for FY 1996.

8.	    “Message from the Administrator,” HCFA Health Watch, Health Care Financing
       Administration, Department of Health and Human Services, August 1998.

9.     Program Instruction, Administration on Aging AOA-PI-98-05, September 29, 1998.

10.    Older Americans Act, §§ 102(13) and 102(26).

11.	   Instructions for Completing the State Long Term Care Ombudsman Program
       Reporting Form for the National Ombudsman Reporting System (NORS),
       Administration on Aging, OMB #0985-0005, expiration August 31, 2001.

12.    Social Security Act § 1919(g).

13.	   Benson, W., Administration on Aging, Testimony to Older American Caucus
       Congressional Hearing, November 5, 1997. This statement is actually attributed by
       Mr. Benson to Rosalie Wolf, Institute on Aging, Medical Center of Central
       Massachusetts.

14.	   The National Elder Abuse Incidence Study, National Center on Elder Abuse and the
       American Public Welfare Association in collaboration with Westat, Inc., Final Draft
       Report, Second Revision, July 1, 1998. This study originated in 1992 when Congress
       directed that a study of the national incidence of abuse, neglect, and exploitation of
       elderly persons be conducted. This study was jointly funded by AoA and the
       Administration for Children and Families (ACF).

                                            13

15.	   Data reported by sentinel agencies are not officially reported to the APS agencies, nor
       are they officially substantiated. There were four types of sentinel agencies in this
       study: law enforcement, elder care providers (i.e., adult care centers), financial
       institutions (banks), and hospitals, including public health departments.

16.	   1997 Data Compendium and Medicaid Program and Financial Statistics Fiscal Year
       1996, Health Care Financing Administration, Department of Health and Human
       Services.

17.	   Michigan and Texas, essentially, use HCFA’s survey deficiency tags as their means of
       collecting nursing home abuse and neglect information. After they determined which
       tags were related to the OIG definitions (for the four abuse categories of physical
       abuse, inappropriate use of restraints, physical neglect, and medical neglect), they
       cross-walked their data to provide us the information requested. They also provided
       their State’s definitions of abuse and neglect and any related sub-categories.




                                            14

                                  REFERENCES

)))))))))))))))))))))))))))))))))))))))))))))))))))))))))))))))


Aravanis, S., Adelman, R., Breckman, R., et al. “Diagnostic and Treatment Guidelines on Elder
Abuse and Neglect,” Arch Fam Med, 1993;2:371-388.

Baumhover, L. and Beall, S., Abuse, Neglect, and Exploitation of Older Persons: Strategies for
Assessment and Intervention, Health Professions Press, Baltimore, Md., 1996.

Benson, W., Administration on Aging, Testimony to Older American Caucus, Congressional
Hearing, November 5, 1997.

Dolan, R. and Blakely, B., “Elder abuse and neglect: A study of adult protective service workers
in the United States,” Journal of Elder Abuse and Neglect, I, 31-49, 1989.

McDaniel, C., Elder Abuse in the Institutional Setting, University of Kansas, May 1997.

MacNamara, Creating Abuse-Free Caregiving Environments for Children, the Disabled, and the
Elderly, Charles C. Thomas, Springfield, Il., 1991.

Pillemer, K. and Finkelhor, D., “The prevalence of elder abuse: A random sample survey,” The
Gerontologist, 28, 51-57, 1988.

Pritchard, J., The Abuse of Older People: A Training Manual for Detection and Prevention,
second edition, Jessica Kingsley Publishers, London, England, 1995.

Sengstock, M. C. and Liang, J., Identifying and Characterizing Elder Abuse, Detroit, Michigan,
Wayne State University Institute of Gerontology, 1982.

Tatara, T., An analysis of State laws addressing elder abuse, neglect, and exploitation,
Washington, D. C., National Center on Elder Abuse, 1995.

Tatara, T., Institutional Elder Abuse: A Summary of Data Gathered from State Units on Aging,
State APS Agencies, and State Long Term Care Ombudsman Programs, Washington, D. C.,
National Aging Resource Center on Elder Abuse, August 1992.

U. S. House of Representatives, Subcommittee on Health and Long Term Care, Select Committee
on Aging, Elder Abuse: An Examination of a Hidden Problem, Washington, D. C., U. S.
Government Printing Office, Publication 97-277, 1981.

U. S. House of Representatives, Subcommittee on Health and Long Term Care, Board and Care
Homes in American: A National Tragedy, Washington, D. C., U. S. Government Printing Office,
Publication 101-711, Chairman’s Report, 1989.

                                                15

U. S. Senate, Special Committee on Aging, Nursing Home Care: The Unfinished Agenda, Vols I

and II, Washington, D. C., U. S. Government Printing Office, Publication 99-19, 1986.


U. S. Senate, Special Committee on Aging, Resident Assessment: The Springboard to Quality of

Care and Quality of Life for Nursing Home Residents, Washington, D. C., U. S. Government

Printing Office, Publication 101-30, 1990.


Wolf, R. and Pillemer, K., Helping Elderly Victims: The Reality of Elder Abuse, Columbia
University Press, New York, 1989.




                                              16

                                                                                                       Appendix A


                 Letter to State Agencies Requesting Abuse Trend Information


Dear Coordinator:

The Office of Evaluation and Inspections of the Office of Inspector General is responsible for conducting
inspections designed to determine the effectiveness, efficiency, and vulnerability to fraud, waste, or abuse of
Department of Health and Human Services programs. We recognize that the primary responsibility for
designing, operating, and coordinating services for the elderly and disabled lies with the States. We are
conducting a study to determine the recent trend in selected categories of nursing home patient abuse
complaints reported and resolved in selected States. As part of that undertaking, your State has been selected
as one of the participants.

While many State agencies have some responsibility for resolving nursing home problems, each State designates
a coordinator with central State authority to receive complaints of mistreatment or neglect of nursing home
patients. Based on our research and confirmation within your agency, you have been designated as having that
role. We would like you to complete the data table provided. Following your completion of the form, we would
like to know the amount of time the table required for completion.

Federal definitions of elder abuse, neglect, and exploitation first appeared in the 1987 Amendments to the Older
Americans Act. However, these definitions were only provided as guidelines for identifying problems, not for
enforcement purposes. Currently, elder abuse is defined by State laws, and their definitions vary in terms of
what constitutes the abuse, neglect, or exploitation of the elderly. Additionally, researchers have used many
different definitions to study the problem. Yet, in most cases, State statutes provide the necessary definitions
with varying degrees of specificity.

The definitions we will use for reviewing four types of abuse in this study are as follows:

    Physical Abuse	        the infliction of physical pain or injury which may result in bodily injury, physical
                           pain, or impairment, including sexual abuse

    Inappropriate Use    chemical or physical control of a resident beyond physician’s
    of Restraints    orders or not in accordance with accepted medical practice

    Physical Neglect	      disregard for necessities of daily living (e.g., failure to provide necessary food,
                           clothing, clean linens, or daily care of the resident’s person necessities)

    Medical Neglect	       lack of care for existing medical problems (e.g., ignoring the need for a special diet,
                           not calling a physician when necessary, not being aware of the possible negative
                           effects of medications, or not taking action on a medical problem)

This means you may need to review and adjust your State’s definitions of abuse and neglect for nursing home
patients to conform with the definitions above. This also means you may have to adjust your collected data
accordingly.

Please fax the completed form and your written comments to us at 214-767-2039 by {August 7}. We realize
that this is a short time frame and greatly appreciate your efforts in this endeavor. If you have any questions,
please contact Leah Bostick of my staff at 214-767-3310 or 1-800-848-8960. Thank you very much for your
assistance.

Attachment - Form and Table


                                               Appendix A - Page 1
Appendix A - Page 2

                                                                                                            Appendix B


                      Examples of State Definitions of Abuse and Neglect

Sample State    State Definition Abuse                   State Definition Neglect

California      No specific definitions; uses 12 categories of abuse, neglect, and exploitation each having no specified
                definition, a subjective decision determine which category to use for reported incident.

Florida         Non-accidental infliction of physical    Failure or omission on the part of the caregiver of a disabled
                or psychological injury or sexual        adult or an elderly person to provide the care, supervision, and
                abuse upon a disabled adult or an        services necessary to maintain the physical and mental health of
                elderly person.                          the individual (including food, clothing, medicine, shelter,
                                                         supervision, and medical services).
                                                         Also means the failure of a caregiver to make a reasonable
                                                         effort to protect a disabled adult or an elderly person from
                                                         abuse, neglect, or exploitation by others.
                                                         Repeated conduct or a single incident of carelessness which
                                                         produces or could be expected to result in serious physical or
                                                         psychological injury or a substantial risk of death.

Illinois        Physical injury, sexual abuse, or        Failure in a long term care facility to provide adequate medical
                mental injury inflicted on a resident    or personal care or maintenance, which failure results in
                other than by accidental means.          physical or mental injury to a resident or in the deterioration of
                                                         a resident’s physical or mental condition
                Complaint intake personnel also
                delineate by physical, sexual, verbal,
                and mental abuse as well as by
                sexual assault (only resident to
                resident).

Massachusetts   Physical contact with a patient or       Failure of a facility or individual to provide treatment or
                resident which harms, or is likely to    services necessary to maintain the health or safety or a patient
                harm, that patient or resident           or resident (certain standards apply).
                (certain standards apply).

Michigan        State law defines abuse using            Failure, through inattentiveness, carelessness, or omission of an
                HCFA’s “Guidance to Surveyors-           individual to provide timely, consistent, and safe services,
                Long Term Care Facilities,” Tag          treatment and care to a facility resident.22
                F223, which is a tool which can be
                used by surveyors in the course of
                conducting a facility survey;
                differentiates abuse, involuntary
                seclusion, mental abuse,
                misappropriation of resident
                property, neglect, physical abuse,
                sexual abuse, and verbal abuse.

New York        Inappropriate physical contact with a    Failure to provide timely, consistent, safe, adequate, and
                resident of a health care facility,      appropriate services, treatment and/or care to a nursing home
                while such resident is under the         resident which such resident is under the supervision of the
                supervision of the facility, which       facility, including nutrition, medication, and therapies).
                harms or is likely to harm the
                resident (includes striking, and
                sexual molestation)


                                               Appendix B - Page 1

Ohio    Knowingly causing physical harm or       Recklessly failing to provide a resident with any treatment,
        recklessly causing a serious physical    care, goods, or service necessary to maintain the health or
        harm to a resident by physical           safety of the resident when the failure results in serious
        contact with the resident or by use of   physical harm to the resident.
        physical or chemical restraint,
        medication, or isolation as
        punishment, for staff convenience,
        excessively, as a substitute for
        treatment, or in amounts that
        preclude habilitation and treatment.

Texas   Any act, failure to act, or incitement   A deprivation of life’s necessities of food, water, or shelter, or a
        to act done willfully, knowingly, or     failure of an individual to provide services, treatment, or care to
        recklessly through words or physical     a resident which causes or could cause mental or physical
        action which causes or could cause       injury, or harm or death to the resident.
        mental or physical injury or harm or
        death to a resident. This includes
        verbal, sexual,
        mental/psychological, or physical
        abuse (each individually defined).




                                       Appendix B - Page 2

                                                                                       Appendix C


           State Specific Information Concerning Abuse and Neglect Complaints


    California reported overall complaints of neglect and abuse generally appear to be
decreasing. However, specific complaints of dietary, patient rights, and abuse/neglect problems
increased slightly. California was able to provide the OIG with much of what was requested. The
State captures complaint information under eleven general (broad) categories, but does not have
specific definitions for those categories when complaints are reported. California may also
categorize a complaint by its potential for serious and immediate threat, requiring prioritizing the
number of days allowed from when the complaint is received to when it is investigated.

If we look at California’s neglect/abuse category combined with other, possibly related categories
(which California was willing to say could be inclusive of neglect or abuse situations), for those
complaints designated as Priority 1 (investigation within two days) and Priority 2 (investigation
within 20 days), we see that the overall trend is a drop in reported complaints. However, if we
look at each specific Priority 1 and Priority 2 category, reported complaints increased slightly for
dietary, patient rights, and abuse/neglect. A significant decrease occurred in patient care
complaints (17.4 percent).

When a “reported event” is received, the responsible staff categorize it as one of these eleven:
dietary, administration, physical plant, medication, patient care, patient rights, staffing, patient
record, problem transfer, neglect/abuse, and other. Surveyors who conduct the reviews or
investigations can subjectively determine the category in which to place a complaint. As a result,
California staff confirmed that their neglect/abuse category does not reflect all the possible
complaints of abuse and neglect. A possible neglect or abuse complaint can be categorized in
another category, i.e., “medication” could include chemical restraints or medical neglect; “patient
rights” could include inappropriate restraints; and “patient care” could include physical neglect.

    Illinois reported that, overall, complaints increased, with significant increases occurring
between 1995 and 1997. Abuse increased 14.5 percent with significant increases in neglect and
restraints, 36 percent and 238 percent, respectively). This trend of increasing total complaints
was confirmed when we reviewed the complaints in relation to the number of nursing home
patients for the same years.

Illinois routinely collects abuse complaint information in four categories - physical abuse, sexual
abuse, verbal abuse, and mental abuse. Definitions for type of abuse and neglect complaints are
found in two different State laws. Basically, one set of definitions is for the complaint intake
process, and the second set is for substantiated complaints when recording of the information is
required. All forms of neglect are captured in the one category, “neglect.” When a complaint is
confirmed, it is then defined only by the general terms “abuse” and “neglect” for the purpose of


                                         Appendix C - Page 1
issuing violations. Restraint complaint information was obtained through a manual search of
existing records.

   Massachusetts reported a major decrease in abuse complaints, with a minor increase in
neglect complaints. Overall, the reported complaints in Massachusetts decreased susbstantially.
This decreasing trend was also found when we reviewed the number of possible occurrences
against the number of nursing home patients during the same years. However, it is interesting to
note that a concurrent OIG draft report, Long-Term Care Ombudsman Program: Complaint
Trends (OEI-02-98-00351), indicates that abuse statistics for Massachusetts’ annual
Ombudsman’s report show significant increases (108 percent for a five year period).

Massachusetts does not distinguish abuse or neglect within specific categories, choosing to use
the broad Federal definitions located at 42 Code of Federal Regulations (CFR), section 488,
Subpart E. During the intake process of receiving a complaint, the specific type of abuse or
neglect is identified. Conversation with staff indicate that the State’s complaint system provides
complaint information in a singular category of “abuse” which includes neglect, with no
differentiation of specific types. As a result, in order to provide the neglect category of
information, a staff person had to manually segregate those complaints. No further information on
definitions or reporting and collection processes were provided by Massachusetts.

    Michigan reported only six months of data in 1995. Overall, there was a minor increase of
1.3 percent in complaints from 1996 to 1997. However, for estimation purposes, if we double the
1995 reported complaints (to obtain an annual figure), the result would show a slightly higher
increase of 9.6 percent in the overall complaints. When we review the change in complaints
reported between 1996 and 1997 for specific sub-categories, we see a significant increase in
medical neglect and a moderate increase in physical neglect, 58.5 percent and 20.7 percent,
respectively. Data for that period also indicate a significant decrease in physical abuse (40.7
percent) and a moderate decrease in misuse of restraints (20 percent).

Michigan initially served as our test State for the request process. Given that their system codes
had no direct relationship to those of the request, they had to conduct the requested cross-walk of
their data. This was partially a manual identification and retrieval process conducted in a
relatively short time period. Their data reflect allegations rather than complaints, as one
complaint may have multiple allegations. Each allegation is designated by type using the State’s
defined types of abuse and neglect. Generally, Michigan uses the typical broad definitions of
abuse and neglect from both the State’s Complaint Investigation Manual and the Michigan
Public Health Code. However, the manual also provides definitions for the more specific types of
abuse, including involuntary seclusion, mental abuse, physical abuse, sexual abuse, and verbal
abuse.

    New Jersey reported their number of overall complaints for calendar years 1995 through
1997. The numbers were 1,251; 1,221; and 1,366, respectively. The State does not use State
definitions for their abuse complaint system; they do, however, utilize the HCFA survey tags. The


                                        Appendix C - Page 2
State Ombudsman office has responsibility for the investigation of physical abuse complaints. The
Division of Long Term Care Systems (which provided the complaint statistics) was unable to
obtain the physical abuse statistics from the Ombudsman’s office.

   New York reported a substantial decrease (37 percent) across combined categories of abuse
and neglect between 1993 and 1995. New York provided three printed annual reports, “Resident
Abuse and Complaint Investigation Program” (reflecting calendar years 1991; 1992-1993; and
1994-1995). The 1996-1997 report is not yet available. New York’s reports show a small
decrease from 1993 to 1994 followed by significant decrease from 1994 to 1995.

It is interesting to note that, as in several other sample States, New York’s response to the most
recent Federal surveillance and enforcement regulations enacted July 1, 1995, was a realignment
of its data collection program to meet the Federal definitions. The State’s “Patient Abuse
Reporting Law” (Section 2803-d of the Public Health Law), requires the reporting of abuse
occurrences in all nursing homes. Allegations resulting from complaints, initially reviewed for
nature, scope, and severity, are then categorized as either Chapter 340 Complaints1 or General
Complaints, more commonly referring to facility systemic issues. New York defines each
category by the nature of the complaint. The category of physical abuse includes slapping,
pushing, holding, kicking, stabbing, exposure, fondling, and raping. Neglect, or the failure-to-
provide-care category, most commonly includes safe care, appropriate care, adequate care,
transfer, and restraints.

    Ohio three-year data shows an extremely high increase in neglect complaints (73 percent).
Abuse complaints also increased by 26 percent. Ohio provided statistics for the two broad
categories of abuse and neglect. It does not collect or report statistics on specific types of abuse,
such as “restraints” complaints (Ohio includes restraints in the broad category of Resident Rights
Issues).

    Tennessee reported an overall decrease in abuse and neglect complaints; however, neglect
complaints are increasing. Tennessee’s abuse complaints decreased 16.7 percent between 1995
and 1997; neglect complaints increased by 15 percent. Tennessee, like the other sample States,
adheres to the Federal definitions at 42 CFR 488.301 for required reporting and investigation of
abuse. According to staff, the State does not prescribe any specific definitions for abuse and
neglect, choosing to use only the Federal definitions. The State maintains data only for three
years, plus the current year. Tennessee is in the process of converting to an automated system for
collecting and reporting on abuse and neglect.



       1	
               New York’s Laws of 1980, Chapter 340, amended the State’s Public Health Law encouraged
               reporting of abuse occurrences, strengthened the provisions for immediate action and imposition
               of fines for committing or failure to report abuse, mistreatment, or neglect. The State
               Department of Health continues to refer to complaint allegations of patient abuse, mistreatment,
               and neglect as Chapter 340 complaints.

                                            Appendix C - Page 3
    Texas reported an overall slight increase in the number of complaints received (1.5 percent).
Yet, when one looks at the four reported categories individually, we find abuse complaints
significantly increased by 21.9 percent with smaller increases reported for misuse of restraints (6.8
percent) and medical neglect (4.2 percent). During that same period, physical neglect reports
showed a slight decrease of five percent. When we reviewed the number of complaints in relation
to the number of nursing home patients in the same years, the slightly increasing trend was
confirmed.

Texas’ abuse and neglect complaint data is collected through a process which utilizes the Federal
enforcement codes to define the complaints. This allowed Texas to provide the cross-walk from
their collected data to the four definitions used for this study.




                                         Appendix C - Page 4
